1

PROOF OF SERVICE
(in New Zealand),as required by Supreme

I,Madhu Sameer,do swear or declare that on this date
Court Rule 29,1 have served the following documents :

Motion For Leave To proceed in Forma Paupris,&
Petition for Writ Of Certiorari
On defendant
RIGHT MOVE 4 U
mffanklin@therightmove4u.com
Michelle Franklin
mffanklin@therightmove4u.com
Dylan Cartino,
sales7 @therightmove4u. com
Conroy Removals Ltd,
fionac@conrov. co. nz
Fiona Conroy,
fionac@conrov.co.nz
Monica McKinley
monicam@,conroy.co.nz
Talbot Underwriting Risk Services Ltd
reed.lvon@clvdeco.us
Conte C.Cicala
Till date,despite repeated requests,and 4 services attempted on various
Talbot offices and headquarters, Talbot Insurance has not provided a
definitive answer as to who is to be served.However, each of these persons
can legally be served, esp when there is a resistance, and efforts to evade
service.These are email addresses for persons who accepted the last service .
Shipco Transport
rcrowder@,tresslerlln.com,LADocket@tresslerllp.com
XO Moving Systems
melissam@xomovingsvstem.com

;

Using their email addresses. All others have since moved, changed their email address and are intentionally
evading service.
I used my email address Madhu.bambroo@gmail.com to serve these documents.
Respectfully Submitted

ndhu Sameer,Petitioner,Pro Se

9/28/2020(New Zealand)

41

